ES, IG-03-019, Railroad Operations Involving Hazardous Commodities at the John F. Kennedy Space Center
IG-03-019
Railroad Operations Involving Hazardous Commodities
at the John F. Kennedy Space Center
June 27, 2003
EXECUTIVE SUMMARY
We issued a report containing recommendations to improve the safety of Kennedy Space
Center rail transportation.  The corrective actions related to enhancing and properly
implementing surveillance and safety procedures for railcars and railroad operations.
Management concurred with our recommendations and plans to take corrective actions.
This report contains information that may not be releasable to the
general public.
Rev. July 14, 2003